No..

3ht®Ije

Supreme Court of tfje ®ntteb States
In Re MARRIAGE OF RYAL W. RICHARDS AND ALICIA MARIE
RICHARDS

ALICIA MARIE RICHARDS
Petitioners,
V.
RYAL W. RICHARDS,
Respondent.
PROOF OF SERVICE
I, Alicia Marie Richards, do swear or declare that on this date,
December 15, 2020, as required by Supreme Court rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS, PETITION FOR WRIT OF CERTIORARI, APPENDIX
VOL. 1 TO 4, CERTIFICATE OF COMPLIANCE, PROOF OF
SERVICE on each party to the above proceeding or that party’s counsel
by electronic service through truefiling3 for immediate delivery.
The names and addresses of those served are as follows:
Law Offices of Kevin E. Robinson on behalf of Ryal W. Richards
@ robinsonlawoffice@yahoo.com
Court of Appeals, Fourth Appellate District, Division Three
Honorable Judge Andre De La Cruz @ W10@occourts.org
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on December 15, 2020

ByAlicia Marie Richards

Additional material
from this filing is
available in the
Clerk's Office.

